Because this report contains proprietary information and addresses issues associated
with physical security, we do not intend to release the specific findings to the public.


             RESTRICTED DISTRIBUTION – FOR OFFICIAL USE ONLY
This Page Intentionally Left Blank
CONTENTS


Section                                                         Page



   ACRONYMS AND ABBREVIATIONS                                    ii

   PREFACE                                                       1


   EXECUTIVE SUMMARY                                             2


   BACKGROUND                                                    3


   OBJECTIVES, SCOPE AND METHODOLOGY                             6


   RESULTS IN DETAIL                                             7
        A. Facility Risk Assessment                              7
          B. Physical Security                                   10
              a. Security Operations and Administration Needs
                                                                 10
                 Improvement
              b. Facility Entrance Security                      15
              c. Security Systems                                19
              d. Site and Interior Security                      21

          C. Conclusion                                          22

   APPENDICES

          A.                                                     24

          B. Management Response                                 25




                                                                       i
ACRONYMS AND ABBREVIATIONS

CCTV              Closed Circuit Television
COOP              Continuity of Operations
DHS               Department of Homeland Security
DO                Designated Official
DOJ               Department of Justice
FCA               Farm Credit Administration
FDIC              Federal Deposit Insurance Corporation
Federal Reserve   Board of Governors of the Federal Reserve System
FOUO              For Official Use Only
FPS               Federal Protective Service
FSC               Facility Security Committee
FSL               Facility Security Level
ID                Identification
IDS               Intrusion Detection System
ISC               Interagency Security Committee
NCUA              National Credit Union Administration
OIG               Office of Inspector General
PSI               Protection Strategies Incorporation
SBA               Small Business Administration
SEC               Security and Exchange Commission
SSP               Senior Staff Position




                                                                     ii
Building Security Review at NCUA‘s Central Office and Region II
OIG-11-XX


Preface

Protecting Federal employees and the public who visit U.S. government owned- or
leased-facilities is a complex and challenging responsibility. From the terrorist
attacks of September 11, 2001, and the subsequent Brentwood Postal Facility
anthrax case that same year, to the more recent hostage situation at the Discovery
Channel building in Silver Spring, Maryland, as well as the recent incidents involving
the ignition of incendiary devices in packages that were mailed to two state office
buildings in Maryland, the need to provide heightened protection for Federal facilities
and those who occupy and visit them has never been more critical. In light of these
more recent attacks, the NCUA Board rightfully requested the Office of Inspector
General (OIG) move up its timetable for performing its 2011 planned review of
building security measures at the NCUA‘s Central Office and Region II facility.

In the broad and constantly evolving area of security and, in particular, physical
security at Federal facilities, we in the OIG do not hold ourselves out as experts in
the field. However, we approached this review in the same objective manner we
conduct all of our reviews and believe we have developed a report that will not only
help the NCUA Board and management make decisions today that will help close
the gap on several security vulnerabilities we detected, but will also provide a
roadmap to plan for vulnerabilities that the agency might face in the future.

This report outlines current Federal guidance and NCUA‘s adherence to this
guidance, provides the OIG‘s assessment of NCUA‘s current physical security
measures in place, and makes three recommendations the OIG believes are crucial
to helping ensure NCUA‘s facility and its occupants continue to remain safe.




                                                                  For Official Use Only   1
Facility Security Review at NCUA‘s Central Office
OIG-11-06



Executive Summary

The National Credit Union Administration (NCUA) Office of Inspector General (OIG)
conducted a review of facility security at NCUA‘s Central Office. We reviewed
facility security to: (1) assess the adequacy of physical building security measures at
NCUA‘s Central Office. Within this objective, we placed a particular emphasis upon
reviewing building security access and controls, specifically related to: (a) security
operations and administration;(b) facility entrance security; (c) security systems, and
(d) site and interior security. To achieve these objectives, we interviewed
management and staff in NCUA‘s Division of Procurement and Facilities
Management (DPFM); conducted physical observations of current building security
controls and operations; reviewed NCUA policies and procedures related to building
security; benchmarked with five Federal agencies, and obtained and reviewed
Department of Homeland Security‘s (DHS) security facility risk assessment
standards.




                                               As a result, we are making three
recommendations to correct these deficiencies. Management agreed with our first
recommendation and agreed with all but one aspect of our second recommendation.
However, management disagreed with our third recommendation. The OIG
considers all three recommendations as resolved.




We appreciate the cooperation and courtesies NCUA management and staff
provided to us during this review.




                                                              For Official Use Only   2
Facility Security Review at NCUA‘s Central Office
OIG-11-06



Background

In 1993, the NCUA purchased the building located at 1775 Duke Street in
Alexandria, Virginia as office space for its Central Office and Region II staff.
Currently, the NCUA has approximately 250 employees working in this office
location. The NCUA office building (facility) is part of a larger office complex which
includes three other office buildings and a hotel, as well as a shared underground
parking garage. The facility has seven floors and approximately 167,000 square feet
of usable space. There are four tenants within the facility. NCUA is the primary
building tenant occupying most of the first floor and all of floors 2 through 7. The
other three tenants--an investment firm, an education center and a retail shop--
occupy space on the first floor with each having separate entrances for pedestrian
traffic. Neither of these tenants has space directly connected to or accessible to
NCUA occupied space.

The facility is located in an overall commercial section of Alexandria, primarily
populated with office buildings and some retail establishments. Nearby is a major
rail station, a Federal courthouse, and the U.S. Patent and Trademark Office
complex.

Physical Security Guidance

Federal, as well as NCUA‘s, physical security standards have evolved over time. In
1995, the U.S. Department of Justice (DOJ) established the first set of Government-
wide physical security standards for Federal facilities. After the Oklahoma City
bombing of the Alfred Murrah Federal Building in 1995, the President ordered a
vulnerability assessment of all Federal facilities to terrorism or violence. The DOJ
issued a Vulnerability Report, which developed minimum physical security standards
for civilian federally owned or leased facilities.

In January 1996, the NCUA issued Instruction No. 1063 to establish security
processing procedures for employees and contractors in the Central Office. In
December 1996, NCUA management rescinded Instruction No. 1063 and issued
Instruction 1063.1, which established agency procedures on building access control
for the facility. The revised instruction essentially implemented a security program
utilizing identification (ID) badges for all employees as well as detailed instructions
for visitors.




                                                              For Official Use Only   3
Facility Security Review at NCUA‘s Central Office
OIG-11-06




                                                                     r




1


2
3




                                                    For Official Use Only   4
Facility Security Review at NCUA‘s Central Office
OIG-11-06



Physical Security Assessment

Although the Department of Homeland Security‘s Federal Protective Service (FPS)
performs building security reviews as part of its mission, we determined FPS only
performs these services for GSA owned and/or leased properties and does not
venture beyond those parameters. Accordingly, NCUA contracted with Protection
Strategies Incorporated (PSI), a private security support firm,4 for a physical security
assessment of the NCUA facility. In October 2010, PSI completed its assessment of
NCUA‘s physical security program and issued its report to the NCUA. PSI assessed
the NCUA facility in seven major categories,




Despite PSI‘s rather comprehensive review of NCUA‘s physical security measures
currently in place, as well as its recommendations to correct the identified
deficiencies, we believe the review stopped short in addressing one very basic and
important, physical security concern –


The OIG‘s 2011 Annual Audit Plan included a review of security measures at the
NCUA‘s Central Office and Region II facility. The NCUA Board, upon review of the
OIG‘s Annual Audit Plan, requested that the OIG accelerate the timetable for this
review and asked that it be conducted immediately.




4
 According to PSI‘s website, PSI provides security support services to many agencies within the Federal
Government as well as private corporations nationwide and overseas.


                                                                               For Official Use Only      5
Facility Security Review at NCUA‘s Central Office
OIG-11-06



Objectives, Scope, and Methodology

The objective of our review was to assess the adequacy of physical building security
measures at NCUA‘s Central Office.




The scope of our review covered building security measures in place at NCUA‘s
Central Office and Region II facility located at 1775 Duke Street in Alexandria,
Virginia during the period from December 2010 to June 2011.

To accomplish our objective we:

       Interviewed management and staff in NCUA‘s Department of Procurement
        and Facilities Management (DPFM), a component division of the NCUA Office
        of the Chief Financial Officer;
       Conducted physical observations of current building security controls and
        operations;
       Reviewed NCUA policies and procedures related to building security;
       Reviewed a recently-completed risk assessment report prepared by a private
        contractor for DPFM;
       Reviewed NCUA‘s self assessed risk level;
       Benchmarked with five Federal agencies5 to determine the extent of physical
        access security measures in place; and
       Obtained and reviewed DHS‘ security facility risk assessment standards for
        comparison with NCUA‘s facility risk assessment and overall adherence to
        the standards.

We conducted this review from December 2010 through June 2011 in accordance
with generally accepted government auditing standards, and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the review to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our review objective. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our review objectives.




5
  The five benchmarked agencies are the Federal Deposit Insurance Corporation (FDIC), the Board of Governors
of the Federal Reserve System (Federal Reserve), Securities and Exchange Commission (SEC), Farm Credit
Administration (FCA), and the Small Business Administration (SBA). (Note: The SBA was chosen because of
similarities with their parking garage. Both SBA and NCUA allow the public to park in their garages.)



                                                                            For Official Use Only         6
Facility Security Review at NCUA‘s Central Office
OIG-11-06



occupied the Facility Manager position since 1989 and gained significant on-the-job
experience since then, this individual had no previous experience or specialized
formal training in security, safety, and emergency management. Nevertheless,
responsibility for facilities and physical management is a critical element of the DO‘s
job description.

The DO is supervised by the DPFM Director. While the Director, DPFM, likewise
has had no specialized formal training in facility physical security, this individual‘s
background includes 35 years of significant experience in physical security.
However, even though the DPFM Director has overall responsibility for the
management of facility security at NCUA, none of the position‘s duties mentions
security or safety responsibilities.




Although NCUA technically meets the requirement of the ISC standard because the
agency has identified a DO responsible for the safety and security of the facility and
its occupants, we believe the position should be staffed by an expert in the field of
security. We found that all of our benchmarking partners have DO‘s at the office or
division director level with responsibility for overseeing every aspect of facility
security. These DO‘s have specialized security backgrounds and qualify as experts
in the field of security. We believe the duties and responsibilities of the DO position
at NCUA should be removed from the existing Facility Manager position and a
separate position should be created. The new position should require that the
incumbent be qualified as a bona fide security expert in the field.

In addition, we also determined NCUA does not have an official facility security
committee (FSC) to address facility-specific security and safety issues, as ISC
recommends. The role of such a committee is to bring forth all security-related
proposals for countermeasures before NCUA management for approval/non-
approval and implementation, as necessary. Lacking an FSC, we believe, exposes
the facility, its occupants, and the mission of the agency to risks




                                                               For Official Use Only      11
Facility Security Review at NCUA‘s Central Office
OIG-11-06




Recommendations

We recommend NCUA management:

    1. Revise the current Facility Manager (CU-1640-13) Position Description by
       removing all references to physical security related functions of the position.

Management Response

Management agreed with the OIG‘s recommendation to remove references to
physical security-related functions from the position description of the Facility
Manager.

OIG Comment

The OIG concurs with management‘s planned action.

We recommend NCUA management:

    2. Create and staff one permanent full-time position to serve as the NCUA‘s
       Designated Official and/or federal security manager. The incumbent should
       possess physical security expertise, and will be responsible for all security
       related matters. Such duties and responsibilities should include (but not be
       limited to):

             a. Assessing facility security levels in accordance with ISC standards at
                all NCUA owned or leased facilities;
             b. Assessing building security vulnerabilities at all NCUA owned or leased
                facilities;
             c. Recommending building security measures to address facility security
                levels, vulnerabilities, and cost/benefit analysis;
             d. Overseeing all aspects of NCUA physical security operations;
             e. Overseeing all aspects of personnel security
             f. Overseeing all NCUA employee safety related functions;
             g. Involvement with all agency Continuity of Operations (COOP) efforts;
             h. Serving on the Facility Security Committee outlined in
                Recommendation 3, below.




                                                             For Official Use Only   12
Facility Security Review at NCUA‘s Central Office
OIG-11-06



Management Response

Management agreed with the OIG‘s recommendation to create and staff one
permanent full-time position to serve as NCUA‘s Designated Official and/or federal
security manager. However, with respect to 2.e. (above), management believes that
personnel security duties should remain in the Office of Human Resources.

OIG Comment

The OIG concurs with management‘s planned action to create and staff one
permanent full-time position to serve as the NCUA‘s Designated Official and/or
federal security manager. However, the OIG does not agree with management‘s
planned action to retain the duties of personnel security within the Office of Human
Resources. The OIG believes a more efficient and effective solution would be to
include all building and personnel security duties under the newly created
Designated Official position. The OIG believes this would not only consolidate all
security-related matters, but also ensure that the Designated Official is aware that
anyone granted unfettered access to the building has been properly cleared.

We recommend NCUA management:

    3. Create a Facility Security Committee in accordance with all applicable ISC
       standards responsible for addressing facility-related security and safety
       issues and presenting all security measures and practices to NCUA
       management for approval/non-approval and implementation, as necessary.

Management Response

Management does not agree with the establishment of a Facility Security
Committee. Management believes security improvements should be raised to
executive management through the existing budget approval process.

OIG Comment

The OIG defers to management‘s decision to consider security improvements
through the annual budget request for consideration by the Office of the Executive
Director and ultimately, the NCUA Board.




                                                            For Official Use Only    13
Facility Security Review at NCUA‘s Central Office
OIG-11-06




                                                    For Official Use Only   14
Facility Security Review at NCUA‘s Central Office
OIG-11-06




Facility Entrance Security




12


13




                                                    For Official Use Only   15
Facility Security Review at NCUA‘s Central Office
OIG-11-06




15


17

t


                                                    For Official Use Only   16
Facility Security Review at NCUA‘s Central Office
OIG-11-06




18




                                                    For Official Use Only   17
Facility Security Review at NCUA‘s Central Office
OIG-11-06




                                                    For Official Use Only   18
Facility Security Review at NCUA‘s Central Office
OIG-11-06




Security Systems




                                                    For Official Use Only   19
Facility Security Review at NCUA‘s Central Office
OIG-11-06




                                                    For Official Use Only   20
Facility Security Review at NCUA‘s Central Office
OIG-11-06



Site and Interior Security




                                                    For Official Use Only   21
Facility Security Review at NCUA‘s Central Office
OIG-11-06



status of building security at NCUA, we believe the three recommendations set forth
on page 12 of this report are reasonable and well grounded.



           Therefore, by leaving these decisions with the DO, we believe this
individual would assist the agency in making those decisions that work best for the
level of protection and the level of risk NCUA management is willing to accept to
keep the facility and its occupants safe.




                                                           For Official Use Only   23
Facility Security Review at NCUA‘s Central Office
OIG-11-06




                                                    For Official Use Only   24
Appendix B: Management Response




                                  For Official Use Only   25
